                               3            i
                                                              NATIONAL SCIENCE FOUNDATION
                                                               OFFICE OF INSPECTOR GENERAL
                                                                 OFFICE OF INVESTIGATIONS

                                                       CLOSEOUT MEMORANDLTM

11   Case Number: A03010004
                                                                                                   11             Page 1 of 1



          We received an allegation the subject' submitted a proposal2 to NSF that contained ideas and
          materials from a graduate student's thesis without appropriate citation.

          Our review of the subject's proposal showed that the subject cited the student's thesis3 twice.
          The second citation included the recommendation that the reader see the student's thesis for a
          more comprehensive discussion of the particular work and related ideas. We contacted the
          complainant, the student's advisor, who explained that his student thought that the subject was
          planning to collaborate with the student in the future, which he did not do, and that parts of the
          subject's proposal sounded very much like the thesis.

          We compared the text and figures in the thesis and the proposal. We found no plagiarized
          materials. We observed that the subject's proposed research area was many times larger than the
          area involved in the student's thesis. Further, the subject's NSF proposal was a much broader
          project than that presented in the thesis. Finally, the subject cited the thesis in the proposal,
          taking the additional step to encourage readers to review the thesis.

          There was no substance to the allegation that the subject used anything inappropriately from the
          student's thesis. This case is closed and no further action will be taken.




          1

          2
                                                                                                          s submitted by the subject
                                                                                                            .                 None
                                                   . However, it is not clear how the complainant learned of the proposal and that it
              did not contain any reference to the student's work.




I'
                                                                                                                 SF OIG Form 2 (1 1/02)
